              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report
Contractor Compliance with
Deemed Export Controls




DOE/IG-0645                                April 2004
INSPECTION OF CONTRACTOR COMPLIANCE WITH
DEEMED EXPORT CONTROLS




TABLE OF
CONTENTS



              OVERVIEW

              Introduction and Objectives ……………………………           1

              Observations and Conclusions ………………………..          2


              DETAILS OF FINDINGS

              Foreign Visits and Assignments Policy ……………….     3

              Export Policy ………………..……...……………………               3


              RECOMMENDATIONS ………………………………...                   4


              MANAGEMENT COMMENTS …………………………                    5


              INSPECTOR COMMENTS …………………………….                   5


              APPENDICES

              A. Scope and Methodology ……………………………              6

              B. Management Comments ……………………………                7

              C. Prior Reports …………………..…………………….. 12

              D. Status of Recommendations from Prior Reports … 13
Overview

INTRODUCTION     Export controls are needed to protect the security of the United
AND OBJECTIVES   States and reduce the proliferation of weapons of mass destruction.
                 Access by a foreign national to a sensitive technology is “deemed”
                 to be an export to the foreign national’s home country.
                 Accordingly, the Department of Energy (Energy), as well as
                 private contractors and universities conducting Energy work, are
                 required by Federal export control regulations to control access by
                 foreign nationals to sensitive technology at all Energy facilities. In
                 particular, access by foreign nationals from countries identified by
                 Energy as “sensitive,” such as Israel and China, to facilities in the
                 United States that work with sensitive technologies must be
                 appropriately controlled.

                 The National Defense Authorization Act for Fiscal Year 2000
                 requires that between 2000 and 2007, the President shall submit to
                 Congress an annual report to include a review by the Offices of
                 Inspector General (OIGs) of Energy and the Departments of
                 Commerce (Commerce), State (State), and Defense that examines
                 export control issues. For 2004, the OIGs for these agencies as
                 well as the Department of Homeland Security and the Central
                 Intelligence Agency reviewed compliance by contractors and
                 universities with deemed export controls for access to unclassified
                 technologies. For this inspection, we conducted a limited review
                 of deemed export controls at General Atomics Corporation
                 (General Atomics), a contractor that conducts work for Energy’s
                 Office of Science (Science) and the National Nuclear Security
                 Administration (NNSA), and the Ames Laboratory (Ames), which
                 is a Science laboratory at Iowa State University. The objectives of
                 our inspection were to determine:

                     •   If the contractor and university comply with deemed
                         export controls for access by foreign nationals to sensitive
                         technologies; and

                     •   The status of recommendations from prior Energy OIG
                         interagency reviews conducted under the National Defense
                         Authorization Act.

                 The OIG has frequently reviewed the unclassified foreign visits
                 and assignments policy, as established by the Energy Office of
                 Security and Safety Performance Assurance, and export control
                 activities, as conducted by NNSA’s Office of Export Control
                 Policy and Cooperation (ECPC). Prior OIG reports concerning
                 Energy’s unclassified foreign visits and assignments policy and
                 export control activities are listed in Appendix C.


Page 1                                      Inspection of Contractor Compliance
                                                  with Deemed Export Controls
OBSERVATIONS AND   Based upon our review at General Atomics and Ames, we
CONCLUSIONS        determined that current Energy policy for unclassified foreign
                   visits and assignments was incomplete and did not specify the
                   responsibilities of those contractor employees charged with hosting
                   foreign nationals. We also determined there was inconsistent
                   application of Energy export control guidance regarding access by
                   foreign nationals to sensitive technologies. Specifically, we found
                   that:

                   •   Some hosts were not knowledgeable of their responsibilities
                       regarding deemed export controls for foreign national visitors
                       and assignees; and

                   •   When staffing research projects, General Atomics fully
                       considered deemed export issues involving foreign national
                       access to sensitive equipment. Ames, however, did not
                       consider visual access to sensitive equipment or its use by
                       foreign nationals, as required by Energy deemed export
                       guidelines.

                   Eight recommendations remain open from prior Energy OIG
                   interagency reviews of export controls conducted under the
                   National Defense Authorization Act. Five of the eight open
                   recommendations address the need to update unclassified foreign
                   visits and assignments policy. The remaining recommendations
                   address the need for more coordination between Energy,
                   Commerce, and State. Details about the open recommendations
                   can be found in Appendix D.




Page 2                                              Observations and Conclusions
Details of Findings

FOREIGN VISITS        We found that some hosts were not knowledgeable of their
AND ASSIGNMENTS       responsibilities regarding deemed export controls for foreign
POLICY                national visitors and assignees. We interviewed 19 hosts of
                      foreign nationals at General Atomics and 18 hosts of foreign
                      nationals at Ames. Five hosts at General Atomics and nine hosts at
                      Ames either did not understand the concept of deemed exports or
                      were not familiar with their corresponding host responsibilities.
                      Many of these hosts had attended only one training session
                      concerning deemed export issues.

                      The current Energy unclassified foreign visits and assignments
                      Notice and Policy, both issued in 1999, define a host but do not
                      discuss host responsibilities or training requirements. We believe
                      that those charged with hosting foreign nationals must have a
                      thorough understanding of their responsibilities if they are to be
                      fully effective in preventing improper access to sensitive
                      technologies.

                      We discussed the lack of guidance regarding host responsibilities
                      for foreign nationals in a prior OIG report. In our report,
                      Inspection of the Department of Energy’s Export License Process
                      for Foreign National Visits and Assignments, DOE/IG-0465,
                      March 2000, we recommended that Energy revise the 1999
                      unclassified foreign visits and assignments guidance to identify
                      host roles and responsibilities. As of April 2004, this guidance has
                      not been issued.

EXPORT POLICY         We found that when staffing research projects, General Atomics
                      fully considered deemed export issues involving foreign national
                      access to sensitive equipment. Ames, however, did not consider
                      visual access to sensitive equipment or its use by foreign nationals,
                      as required by Energy deemed export guidelines. Specifically,
                      General Atomics officials advised us that they verify that foreign
                      nationals from sensitive countries do not have access to sensitive
                      equipment, including visual access and use. Ames had export
                      control policies and procedures in place and conducted
                      verifications; however, Ames did not account for visual access or
                      use of sensitive equipment by foreign nationals from sensitive
                      countries when staffing at least one research project. The
                      Department had issued “Guidelines on Export Control and
                      Nonproliferation” that addressed deemed exports and appropriate
                      equipment usage by foreign nationals, including foreign nationals
                      from sensitive countries. We noted that General Atomics was
                      aware of these guidelines and took appropriate action regarding
                      equipment use by foreign nationals. The responsible Ames




Page 3                                                                Details of Findings
                  official, however, told us that the Laboratory was not aware of the
                  guidelines.

                  We discussed the situation at Ames with ECPC and Commerce
                  officials. Specifically, we provided documentation regarding a
                  project at Ames that we believed involved sensitive equipment that
                  could be accessed by a foreign national working at Ames. After
                  reviewing the documentation, the officials advised that the project
                  did involve the use of potentially sensitive equipment. Commerce
                  officials said that if foreign nationals from certain sensitive
                  countries had used this equipment, an export license would have
                  been needed.

                  We discussed our concern regarding the consistent application of
                  Energy export guidance with ECPC officials. ECPC officials said
                  that all sites, including Ames and General Atomics, should be
                  aware of these guidelines and apply them consistently to ensure
                  that sensitive technologies will not be inadvertently transferred to
                  foreign nationals. ECPC officials also stated that because ECPC
                  does not have oversight responsibilities, it cannot be certain that all
                  Energy facilities and contractors are addressing deemed export
                  concerns.

                  We note that a recent OIG audit report, Safeguards Over Sensitive
                  Technology, DOE/IG-0635, January 2004, recommends the
                  creation of consistent policy regarding access by foreign nationals
                  to certain projects involving sensitive technologies. However, the
                  audit did not specifically address access by foreign nationals to
                  technologies subject to export controls.

RECOMMENDATIONS   We recommend that the Director, Office of Security and Safety
                  Performance Assurance:

                  1. Expedite issuance of a draft unclassified foreign visits and
                     assignments Order 142.X that addresses training requirements
                     and responsibilities for hosts of foreign nationals.

                  We also recommend that the Deputy Administrator, Defense
                  Nuclear Nonproliferation, who has cognizance over the Office of
                  Export Control Policy and Cooperation:

                  2. Ensure that export control guidance, including deemed export
                     guidance, is disseminated and is being consistently
                     implemented throughout the Energy complex.




Page 4                                                             Details of Findings
                                                                   Recommendations
MANAGEMENT   Management concurred with our recommendations. Security
COMMENTS     advised that the final directive for unclassified foreign visits and
             assignments will be issued in April 2004. Science, whose comments
             are included within the response from Security, disagreed with our
             conclusions about Ames. Science commented that Ames has all the
             necessary processes in place to ensure that foreign nationals are not
             obtaining access to potentially sensitive technologies or equipment
             without the necessary approvals or licenses. Additionally, Science
             indicated that the project cited had been reviewed and involved
             fundamental research to be published in open literature.

             NNSA advised that NNSA plans to provide export policies to all
             program elements, to conduct a survey of selected field sites to
             determine problems in implementing this guidance, and to conduct
             random reviews to gauge implementation consistency. Further, the
             results of the survey and the random reviews will be provided to the
             accountable program managers for any further action. Management’s
             comments are provided in their entirety in Appendix B.

INSPECTOR    We consider management’s comments to be responsive to our
COMMENTS     recommendations. Regarding Science’s comment that Ames had
             all necessary processes in place, we observed that Ames personnel
             were not aware that even limited access to sensitive equipment by
             foreign nationals could require an export license. Science’s
             comment that the project cited involved fundamental research to be
             published in open literature does not address our concern, which
             was about the equipment being utilized, not the nature of the
             research or resulting publications. As appropriate, changes were
             made to this report to address specific management comments.




Page 5                              Management and Inspector Comments
Appendix A

SCOPE AND     We interviewed Federal and contractor Energy and NNSA officials
METHODOLOGY   at Headquarters, General Atomics, Livermore Site Office, Ames,
              and the Chicago Operations Office. We also reviewed documents
              relevant to export controls and foreign visits and assignments.

              As part of our review, we also evaluated Energy’s implementation
              of the “Government Performance and Results Act of 1993.” We
              determined that General Atomics and Ames do not have
              performance measures relevant to deemed exports. We note that
              the recent OIG Audit report Safeguards Over Sensitive
              Technology, DOE/IG-0635, January 2004, recommended the
              creation of performance measures relevant to sensitive technology
              controls. We believe that creating separate deemed export
              performance measures would be redundant because a deemed
              export cannot be identified or measured without first identifying
              whether it involves a sensitive technology. Accordingly, the
              recommendation from the above-mentioned report adequately
              addresses the issue of performance measures relevant to deemed
              exports.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 6                                               Scope and Methodology
Appendix B




Page 7       Management Comments
Appendix B




Page 8       Management Comments
Appendix B




Page 9       Management Comments
Appendix B




Page 10      Management Comments
Appendix B




Page 11      Management Comments
Appendix C
                                   PRIOR REPORTS

•    Audit Report on Safeguards Over Sensitive Technology, DOE/IG-0635, January 2004;

•    Letter Report on Inspection of Status of Recommendations from the Office of Inspector
     General’s March 2000 and December 2001 Export Control Reviews, INS-L-03-07, May
     2003;

•    Audit Report on The Department's Unclassified Foreign Visits and Assignments
     Program, DOE/IG-0579, December 2002;

•    Letter Report on Follow-up Inspection of the Department of Energy’s Export Licensing
     Process for Foreign National Visits and Assignments, INS-L-02-06, June 2002;

•    Inspection of the Department of Energy’s Automated Export Control System, DOE/IG-
     0533, December 2001;

•    Inspection of the Department of Energy’s Role in the Commerce Control List and the
     U.S. Munitions List, INS-O-01-03, March 2001;

•    Inspection of the Department of Energy’s Export License Process for Foreign National
     Visits and Assignments, DOE/IG-0465, March 2000;

•    Inspection Report on The Department of Energy’s Export Licensing Process for Dual-
     Use and Munitions Commodities, DOE/IG-0445, May 1999; and,

•    Report on Inspection of the Department’s Export Licensing Process for Dual-Use and
     Munitions Commodities, DOE/IG-0331, August 1993.




Page 12                                                                      Prior Reports
Appendix D
               STATUS OF RECOMMENDATIONS FROM PRIOR REPORTS

Section 1204 of the National Defense Authorization Act (NDAA) for Fiscal Year (FY) 2001,
amended Section 1402(b) of the NDAA for FY 2000 to require the OIGs to include in each
annual report the status of the implementation or other disposition of recommendations that have
been set forth in previous annual reports under Section 1402(b). The reports entitled, Inspection
of the Department of Energy’s Role in the Commerce Control List and the U.S. Munitions List,
INS-O-01-03, March 2001, and Letter Report on Inspection of Status of Recommendations from
the Office of Inspector General’s March 2000 and December 2001 Export Control Reviews, INS-
L-03-07, May 2003, did not contain recommendations.

The following is the current status of recommendations in the reports entitled, Inspection of the
Department of Energy’s Export License Process for Foreign National Visits and Assignments,
DOE/IG-0465, March 2000, and Inspection of the Department of Energy's Automated Export
Control System, DOE/IG-0533, December 2001. Recommendations 1, 3, and 4 from the 2000
report were previously reported as closed. Recommendations 2, 5, 6, 7, and 8 from that report
remain open. All three recommendations from our 2001 report remain open.

  Inspection of the Department of Energy’s Export License Process for Foreign National Visits
                         and Assignments, DOE/IG-0465, March 2000

Regarding Recommendation 2, we recommended that the Office of Security and Emergency
Operations, ensure that a proposed revision of the Energy Notice concerning unclassified foreign
visits and assignments include the principal roles and responsibilities for hosts of foreign
national visitors and assignees.

Energy reported that it incorporated all required changes to Draft Order 142.X, including the
principal roles and responsibilities for hosts of foreign national visitors and assignees. The Draft
Order was posted to the RevCom system for Energy-wide review on September 11, 2003.

Current Status: This recommendation should remain open until the Order is issued in final.

Regarding Recommendation 5, we recommended that the Director, Office of Security and
Emergency Operations, ensure that the requirements in the revised Energy Notice for
unclassified foreign national visits and assignments are clearly identified and assigned to
responsible officials or organizations.

Energy reported that it incorporated all required changes to Draft Order 142.X, including the
principal roles and responsibilities for hosts of foreign national visitors and assignees. The Draft
Order was posted to the RevCom system for Energy-wide review on September 11, 2003.

Current Status: This recommendation should remain open until corrective action is completed.

Regarding Recommendation 6, we recommended that the Acting Deputy Administrator for
Defense Nuclear Nonproliferation ensure that guidance issued by the Nuclear Transfer and
Supplier Policy Division (now the Office of Export Control Policy and Cooperation) to advise

Page 13                                      Status of Recommendations From Prior Reports
hosts of their responsibilities regarding foreign nationals includes the appropriate level of
oversight to be provided by the host during the period of the visit or assignment.

Energy reported that it incorporated all required changes to Draft Order 142.X, including the
principal roles and responsibilities for hosts of foreign national visitors and assignees. The Draft
Order was posted to the RevCom system for Energy-wide review on September 11, 2003.

Current Status: This recommendation should remain open until corrective action is completed.

Regarding Recommendation 7, we recommended that the Director, Office of Security and
Emergency Operations, revise Energy policy regarding foreign national visits and assignments to
ensure that consistent information is being maintained by Energy sites regarding foreign
nationals visiting or assigned to work at the site.

Energy reported that it incorporated all required changes to Draft Order 142.X, including the
principal roles and responsibilities for hosts of foreign national visitors and assignees. The Draft
Order was posted to the RevCom system for Energy-wide review on September 11, 2003. In
addition, to the change to Draft Order 142.X, sites formerly exempt from Energy Notice and
Policy 142.1 are currently required to enter visit and assignment information in FACTS for all
requests for Nationals of State Sponsors of Terrorism, for all Sensitive Country Assignees, and
for all Sensitive Country visitors involving Sensitive Subjects.

Current Status: This recommendation should remain open until corrective action is completed.

Regarding Recommendation 8, we recommended that the Director, Office of Security and
Emergency Operations, require that all Energy sites having foreign national visitors or assignees
enter information regarding the visits or assignments into FARMS, or a designated central
Energy database.

On November 5, 2001, the Deputy Secretary of Energy signed a memorandum directing all sites
that are not exempt from Energy Notice and Policy 142.1 to enter information regarding foreign
visits and assignments into FACTS. On December 17, 2002, the Deputy Secretary of Energy
signed an Interim Guidance memorandum directing sites formerly exempt from Energy Notice
and Policy 142.1 to enter visit and assignment information in FACTS for all requests for
Nationals of State Sponsors of Terrorism, for all Sensitive Country assignments, and for all
Sensitive Country visits involving Sensitive Subjects. The Office of Security has incorporated
all these requirements into Draft Order 142.X. The Draft Order was posted to the RevCom
system for Energy-wide review on September 11, 2003.

Current Status: This recommendation should remain open until corrective action is completed.

          Inspection of the Department of Energy's Automated Export Control System,
                                DOE/IG-0533, December 2001

Regarding Recommendation 1, we recommended that the Assistant Deputy Administrator for
Arms Control and Nonproliferation coordinate with Commerce and the Department of the

Page 14                                      Status of Recommendations From Prior Reports
Treasury to ensure access by Energy to information within the Automated Export System
regarding the purchase and/or shipment of commodities under an approved export license, and
develop guidelines for Energy’s access to the information.

Energy reported that the Memorandum of Understanding (MOU) with the U.S. Census Bureau
(Census) is on hold. NNSA has been requested to participate in the use of a new system. This
system is the International Trade Data System. It is more a comprehensive enforcement system
than a monitoring system. Agencies are to be integrated during 2004.

Current Status: This recommendation should remain open until corrective action is completed.

Regarding Recommendation 2a, we recommended that the Assistant Deputy Administrator for
Arms Control and Nonproliferation coordinate with the Department of State to improve
communications regarding review of export license applications for munitions commodities.

Energy reported that the MOU with Census is on hold. NNSA has been requested to participate
in the use of a new system. This system is the International Trade Data System. It is more a
comprehensive enforcement system than a monitoring system. Agencies are to be integrated
during 2004.

Current Status: This recommendation should remain open until corrective action is completed.

Regarding Recommendation 2b, we recommended that the Assistant Deputy Administrator for
Arms Control and Nonproliferation coordinate with the Department of State to ensure access by
Energy to information maintained by State regarding final disposition (i.e., approval/denial of
license applications and the purchase and/or shipment of commodities) of export license
applications and develop guidelines for Energy’s access to the information.

Energy reported that the MOU with Census is on hold. NNSA has been requested to participate
in the use of a new system. This system is the International Trade Data System. It is more a
comprehensive enforcement system than a monitoring system. Agencies are to be integrated
during 2004.

Current Status: This recommendation should remain open until corrective action is completed.




Page 15                                    Status of Recommendations From Prior Reports
                                                                    IG Report No. DOE/IG-0645

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
